<html>
<title> - EXAMINE NUTRITION ISSUES SURROUNDING SCHOOL LUNCH PROGRAMS</title>
<body><pre>[Senate Hearing 107-302]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-302
 
       EXAMINE NUTRITION ISSUES SURROUNDING SCHOOL LUNCH PROGRAMS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 6, 2001

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                        U.S. GOVERNMENT PRINTING OFFICE
74-346                           WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  RICHARD G. LUGAR, Indiana, Chairman

JESSE HELMS, North Carolina          TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  THOMAS A. DASCHLE, South Dakota
PETER G. FITZGERALD, Illinois        MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                J. ROBERT KERREY, Nebraska
WAYNE ALLARD, Colorado               BLANCHE L. LINCOLN, Arkansas
TIM HUTCHINSON, Arkansas             ZELL MILLER, Georgia
MICHEAL D. CRAPO, Idaho              DEBBIE A. STABENOW, Michigan
                                     BEN NELSON, Nebraska
                                     MARK DAYTON, Minnesota

                       Keith Luse, Staff Director

                    David L. Johnson, Chief Counsel

                      Robert E. Sturm, Chief Clerk

            Mark Halverson, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Examine Nutrition Issues Surrounding School Lunch Programs.......    01

                              ----------                              

                         Tuesday, March 6, 2001
                    STATEMENTS PRESENTED BY SENATORS

Lugar, Hon. Richard G., a U.S. Senator from Indiana, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Baucus, Hon. Max, a U.S. Senator from Montana....................    06
Harkin, Hon. Tom a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    02
Leahy, Hon. Patrick J., a U.S. Senator from Vermont..............    19
Lincoln, Hon. Blanche L., a U.S. Senator from Arkansas...........    05
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............    08
                              ----------                              

                               WITNESSES

Hurt, Marilyn, President, American School Food Service 
  Association, 
  accompanied by: Marcia Smith, President Elect, American School 
  Food Service Association, Bartow, Florida; Gaye Lynn MacDonald, 
  Vice 
  President, American School Fund Service Association, 
  Bellingham, 
  Washington; Nancy Stiles, Chair, Public Policy Legislative 
  Committee, American Food Service Association, Hampton, New 
  Hampshire......................................................    19
                              ----------                              

                                APPENDIX

Prepared Statements:
    Lugar, Hon. Richard G........................................    28
    Harkin, Hon. Tom.............................................    30
    Hurt, Marilyn................................................    31
Document(s) Submitted for the Record:
    Easy Cash Eroding Their Principles by Marc Fisher, The 
      Washington Post............................................    38
    Schools Hooked on Junk Food by David Nakamura, The Washington 
      Post.......................................................    41


            REVIEW OF NUTRITION AND THE SCHOOL LUNCH PROGRAM

                              ----------                              


                         TUESDAY, MARCH 6, 2001

                                               U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
216, Dirksen Senate Office Building, Hon. Richard G. Lugar.
    [Chairman of the Committee] presiding.
    Present: Senators Lugar, Harkin, Lincoln, Baucus, Cochran, 
Stabenow, Allard, and Leahy.

OPENING STATEMENT OF HON. RICHARD G. LUGAR, A U.S. SENATOR FROM 
                INDIANA, CHAIRMAN, COMMITTEE ON 
              AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. This hearing of the Senate Agriculture 
Committee is called to order.
    We are very pleased once again to have such a wonderful 
turnout of those deeply interested in the school lunch program 
in our country. We look forward to hearing the testimony of the 
witnesses. Today, our committee will hear that testimony on 
Federal child nutrition programs and recommendations for 
improvements.
    These programs are among the committee's highest 
priorities. Adequate and appropriate nutrition for children, 
seniors, and all Americans is a matter, first of all, of public 
health. It is especially important for children, in their early 
physical development, their performance in school, and their 
preparation for adulthood.
    The school lunch program, the breakfast, special milk and 
after-school snack, summer food service, child and adult care 
feeding programs are all vital components of our national 
efforts to encourage healthy eating habits that will hopefully 
guide food choices throughout life.
    March is National Nutrition Month, an annual nutrition 
education campaign, designed to focus attention on the 
importance of making informed food choices, and developing 
sound eating and physical activity habits.
    It is always a distinct pleasure to hold this hearing to 
receive testimony from one of the vanguards of America's child 
nutrition organizations, the American School Food Service 
Association. The committee is pleased to be able to hold this 
hearing to coincide with the presence of members of the 
association in Washington.
    I note, Ms. Hurt, that your testimony lists the Hoosiers 
present today, and I am happy to see so many representatives 
here from Indiana. I understand that there are nine, and I hope 
that they are appropriately seated.
    Ms. Hurt. They are.
    [Laughter.]
    The Chairman. Great, welcome, and we appreciate your 
presence.
    We need everyone to be concerned about children's eating 
habits. Unfortunately, sometimes, they make poor food choices, 
as do many adults, for that matter.
    Many do not exercise enough. As a result, many of our 
children are much heavier than ever before. These behaviors set 
lifetime patterns that, unless corrected, put them at risk for 
heart disease, hypertension, diabetes, and stroke, just to name 
a few of these dreadful diseases.
    The Federal Child Nutrition Programs provides an 
opportunity to help guide sound food choices for school-age 
children. These programs, coupled with nutrition education and 
other efforts, can help address the nutritional needs of young 
people.
    The efforts of your association are appreciated, as we work 
together toward helping Americans live healthier lives. We will 
be pleased to hear your suggestions, as always, on ways to 
improve our programs.
    We look forward also to your comments on a proposed 
International School Lunch Program. On July 27 of last year, I 
chaired a hearing of this committee to receive testimony from 
Ambassador George McGovern and Senator Bob Dole on the proposed 
international school lunch feeding program.
    Senators Leahy, Harkin, Durbin, Cochran, and I are deeply 
interested in moving ahead with legislation on this issue, as 
appropriate. The Agriculture Committee staffs have been working 
with other Senate offices to design such a program.
    Last year, President Clinton announced the Global Food for 
Education Initiative, a $300 million pilot program, based on 
the McGovern/Dole initiative. Senators Harkin, Durbin, and I 
have asked the General Accounting Office to review the aspects 
of this initiative, which will be helpful in our own 
legislative initiative.
    As other Senators appear, I will ask them for comments and, 
indeed, the distinguished Ranking Member has appeared, right on 
time. I will ask now Senator Harkin for his opening comments to 
this hearing.
    [The prepared statement of Chairman Lugar can be found in 
the appendix on page 28.]

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Mr. Chairman, thank you very much. I am 
glad we have this much interest in one of the most important 
aspects of the education of our children, and that is an 
adequate and nutritional diet.
    I look forward to working with you, Mr. Chairman, on these 
programs, and with the Ranking Democratic Member of the 
Nutrition Subcommittee, Senator McConnell, and also Senator 
Leahy.
    Many groups and many people come to Washington to make 
their case to Congress. I cannot think of any group that comes 
here with more joy, enthusiasm and commitment, than the members 
of the American School Food Service Association.
    Their work providing sound nutrition is critical to the 
future of our children and our nation. They do it with real 
dedication. Our job is to provide the resources and support 
they need to succeed.
    I very much appreciate the testimony today from Marilyn 
Hurt, the President of the ASFSA; and the attendance of the 
Iowa School Food Service Association Delegation, Carolyn Klein, 
President; her husband, Perry; Marilyn Wilkins, President-
Elect; Diane Duncan Goldsmith, our Vice President; Teresa 
Niece, our Legislative Chair; and Elizabeth Hanna, Regional 
Director for the ASFSA; and also, Patty Harding, John Larson, 
and Dale Johnson.
    I especially want to mention my interest in promoting a 
stronger school breakfast program. For learning and good 
nutrition, breakfast really is the most important meal of the 
day. Perhaps if we could turn the clock back 60 years, maybe we 
should have started with a school breakfast program, and then 
gone into a school lunch program after that.
    Be that as it may, the school lunch program has proven its 
worth. Now I think we have enough data, over the last few 
years, from our school breakfast pilot to indicate, I think, 
without any doubt, that a nationwide, full-service school 
breakfast program is the next step that we must take. We now 
have full funding for these demonstration projects, so we have 
to get the thing under way for school breakfasts.
    Local school food service operations and USDA have made 
great strides in improving the nutritional quality of school 
meals. Of all of the remarks that I make this morning, this is 
the one that I want to focus on. It is a real shame that the 
progress that all of you here have worked so hard to accomplish 
is being undermined daily by the marketing to our children of 
competing foods of little or no nutritional value.
    [Applause.]
    Senator Harkin. Currently, the USDA has only weak rules to 
prevent the sales of soda and candy from interfering with 
school meals. Now we learn that schools are even ignoring those 
weak rules.
    It is not right that taxpayer dollars go out to support 
sound nutrition, only to have that sound nutrition undercut 
right in the schools, themselves. This is an important issue, 
and one that our committee wants to address.
    There was an article in the Washington Post here last week 
about a couple of local schools, and how the vending machines 
were open in the morning, open during lunch hour, and how much 
money the schools were getting from those vending machines in 
order to pay for sports and other things.
    We find ourselves in a terrible situation, where schools 
that are under-funded, that need money, now are attached by an 
umbilical cord to these vending machines, that put out candy 
and soda, potato chips, the very things that these kids do not 
need.
    They get all sugared up in the morning. They stay sugared 
up through lunch, and then we wonder why we have hyper-active 
kids, and why they are not learning.
    Now I thought, Mr. Chairman, that we had clamped down on 
this. I thought we had a rule. I thought we had a law that said 
these vending machines are not to be open until after lunch. I 
would like to get into that a little bit later. I thought we 
had determined that some time ago, and that these vending 
machines were not to be accessible and available until after 
the lunch services were over with.
    If that is not the rule and if that is not the law, it 
ought to be the law. Those vending machines should not be 
accessible to any kid, at a minimum, until after the lunches 
are over with. In fact, I would say that we probably ought to 
get the vending machines totally out of the school.
    [Applause.]
    Senator Harkin. Some people say, well, these kids, if you 
do that, they will not eat. Well, again, if we start early in 
life, we are all products of our upbringing and our education. 
If we start with kids early in life, and teach them, and I am 
talking about in elementary school, about what good nutrition 
is and what it does for you, and how healthy it makes you; and 
if children grow up like that and are learning that, then they 
will be more prone to have these kinds of meals when they are 
in high school.
    I do not buy the argument, Mr. Chairman and all of you, 
that if we take those vending machines out or lock them up 
until after the lunch hour, that somehow these kids are not 
going to eat.
    They will, I think. If we promote and we educate and we 
support them and their families with good nutrition 
information, and good food that not only is nutritious, but 
also palatable to their tastes, which can be done, I believe 
they will.
    If those vending machines are there, and they can get the 
soda and they can get the candy and they can get the chips, 
that is where they are going to go, because that is where all 
the advertising leads them to.
    I hope, Mr. Chairman, that we can make some strides this 
year, and especially in the next Farm bill. Nutrition is going 
to be an important part of that Farm bill. I hope we can make 
some strides to turn the corner on this. It is unconscionable 
what is happening in these schools today, with these kids and 
the accessibility of vending machines.
    Finally, Mr. Chairman, I want to express my strong support 
for the Global Food for Education Initiatives proposed by 
former Senators McGovern and Dole, and begun by President 
Clinton. Again, I think this concept of a worldwide school 
lunch program for every kid in the world is something that we 
ought to be about and we ought to be supporting.
    I have spent a lot of my time working on trying to end 
child labor, to get kids out of these work places, in various 
places around the globe. One of the best magnets that we can 
have to get kids out of the work place and get them into school 
is to provide them with at least one fully nutritious meal 
every day.
    If you do that, you will get the kids out of these work 
places; you will get the parents seeing that they will have an 
advantage. Their kids will be well fed and we will get them 
into schools.
    I am hopeful that the United States, along with other 
producing nations, can support a global effort, beginning as 
soon as possible, at least in providing some demonstration 
projects in other countries, where we can provide at least one 
fully nutritious meal to kids in schools, in less developed 
nations.
    Mr. Chairman, again, I thank you for holding this very 
important hearing. As you can tell from my comments, I feel 
very strongly about this issue, as I know you do, Mr. Chairman.
    We have worked together on this issue for a long time. 
Hopefully, we can make some progress with this issue of the 
vending machines in schools. I know it is a tough issue, but it 
is one that I think we are going to have confront head on.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 30.]
    The Chairman. Well, thank you very much, Senator Harkin. 
Let me indicate that we do look forward to working together, as 
we progress in the nutrition section of our Farm bill.
    Let me ask, respectfully, of our very large audience today, 
that you respond with more reserve. I do not want to suppress 
your enthusiasm for Senator Harkin, however.
    [Laughter.]
    Senator Harkin. It was not for me. It was for the ideas 
that I was espousing.
    [Laughter.]
    The Chairman. I understand, but to the extent possible, let 
us sort of hold it down to a dull roar. If you want to applaud, 
however, Senator Lincoln, that will be permissible.
    [Laughter.]
    The Chairman. I now want to call on the distinguished 
Senator from Arkansas. Yes, Senator Harkin?
    Senator Harkin. Mr. Chairman, if I might, I have to 
apologize to all my friends here, and to you, Mr. Chairman. We 
all have these conflicts around here. I am also on the 
Education Committee, and we are having a big meeting this 
morning on the Elementary and Secondary Education Act.
    I am going to have to excuse myself from this, and go over 
to that meeting. That is the only reason I would be leaving.
    The Chairman. Thank you for giving that very important 
opening statement.
    Senator Lincoln.

   STATEMENT OF HON. BLANCHE L. LINCOLN, A U.S. SENATOR FROM 
                            ARKANSAS

    Senator Lincoln. Thank you, Mr. Chairman, and as always, 
thanks to you and to Senator Harkin for addressing such a 
critical issue.
    I am so pleased to see that this issue is on the minds of 
many other people, as well, from the wonderful crowd we have 
here in this hearing room. It is certainly indicative of what a 
critical issue it is, not only for our children, but for our 
nation.
    As with most of the issues that we discuss on this 
committee, child nutrition is near and dear to my heart. With 
one in three children living in poverty in Arkansas, I can 
think of no greater service that our country can give these 
children than free or subsidized hot, nutritious meals at 
school.
    We all know that nutrition is an important piece of 
absolutely everyone's well being. Studies show, and certainly, 
teachers have been telling us for years that children who eat 
well-balanced meals, especially a morning breakfast, do better 
academically.
    I have a personal connection there. One of my sisters 
taught in the public schools in Arkansas. She had many 
challenges. She had not only a classroom of 31 students, but 
was teaching simultaneously kindergarten and first grade 
curriculum to 31 kids in one single room. I was always amazed.
    When I asked her, how in the world did you do it, she said, 
these were not even her biggest challenges. She said that those 
children come to school, and they are hungry, they are sick 
sometimes because they are hungry; and she said, they are 
frightened.
    I was amazed when she told me she left teaching. She said 
that the problem was, at the end of the day when she had bus 
duty, there were at least three children clinging to her legs 
saying, please do not make me go home.
    Now it is unbelievable that there are children in such a 
state. If there is one thing that we can do for them, it should 
be a nutritious meal.
    My sister kept peanut butter and crackers in her desk 
drawer for those who did come to school, and were not able to 
get a hot meal. She knew that it could improve them just a 
smidgen, in terms of their learning and their academic 
capabilities.
    As more and more persons move off the welfare roles and 
they try to support themselves, the WIC and the school lunch 
programs are even more important. Over 91,000 women and 
children participate in the WIC program in Arkansas.
    WIC is one of those prevention programs that is cost 
effective, in the long term, because it helps women have 
healthier babies.
    Healthier babies means savings down the road in health care 
costs, both to families and to Government programs like 
Medicaid, which we are an enormous user of in Arkansas, as 
well. Child nutrition programs have far reaching effects. They 
are the safety net that women and children rely on.
    I thank the Chairman and the Ranking Member for holding 
this hearing, and I certainly look forward to your testimony 
from our distinguished witnesses today. I applaud all that have 
come today, not only as witnesses, but to witness the 
discussion of such a critical issue to our children and to our 
nation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lincoln.
    Senator Baucus, do you have an opening comment?

         STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR 
                          FROM MONTANA

    Senator Baucus. Yes, Mr. Chairman, and first, I want thank 
you very much for holding this hearing.
    This is very important. You know, we can not always have 
hearings on every subject under the sun; but for you to decide 
to hold the hearing today on this subject, I think is testament 
to your leadership on the committee. I thank you very much for 
it.
    I would also like to thank Ms. Hurt for her testimony 
today. Also, I want to compliment and thank Wanda Sand, who is 
President of the Montana School Food Association, as well as 
the Food Service Manager for Fairfield Public Schools. I want 
to thank her for her hard work, generally, for Montana kids.
    Mr. Chairman, there is a lot of discussion these days about 
the need to improve our education system, and I support it. I 
very heartily favor all the efforts we have in our country to 
improve our education system. That is good, and we need to do a 
lot better.
    We also need to remember to think about the needs of our 
kids in a much broader sense. A hungry child is a child who 
will not be learning, no matter how good the teacher is. Mr. 
Chairman, I have seen it. I have seen it, first hand, several 
times. It is sad. It is stunning. It just takes your breath 
away.
    I have participated many times in the school lunch and 
breakfast programs. I am amazed at the number of kids who need 
those meals, and if they did not have those meals, would be 
going hungry. Clearly, it affects their learning.
    It is amazing, Mr. Chairman. I mean, a lot of us in the 
Senate just do not know a lot about this. We lead perhaps 
sheltered lives, and we just do not see how much this goes on. 
There is real need in our country, and I just can not tell you, 
Mr. Chairman, how much it hit me, when I personally first hand 
saw the need in Montana schools.
    It may be a little bit worse in our state, because we are a 
low per-capita income state, and our families are having a 
tougher time making ends meet. I am quite confident the 
situation is also true all over the country. It is not just in 
rural states like Montana.
    I compliment the President, who often says he does not want 
to leave any child behind. We do not want to leave any children 
behind. I suggest that, in addition to intellectual learning, 
that nutrition is another part of the equation and one of the 
components that are necessary to make sure that children are 
not left behind.
    I would just sum up, Mr. Chairman, by thanking you for the 
hearing. I hope this hearing highlights the need, so that our 
country does, in fact, pay more attention.
    It is not only the school lunch programs and breakfast 
programs. It is programs like HeadStart. I spent a whole day as 
a teacher's aid at HeadStart one day. Man, I will tell you, 
before that, I was a strong supporter of HeadStart; no more. I 
am no longer a strong supporter of HeadStart. I am a fanatic 
supporter of HeadStart.
    [Laughter.]
    Senator Baucus. I wish that more Senators could have some 
of the same experiences and they, too, would be fanatic 
supporters of helping our kids.
    Thank you, Mr. Chairman, very much.
    The Chairman. Well, thank you, Senator Baucus, for your 
very strong testimony this morning.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you for having this 
hearing. I am looking forward to the testimony of our 
witnesses. We always appreciate the advice and counsel that we 
get from the American School Food Service Association. We 
appreciate your being here, and we value your comments.
    Thank you.
    The Chairman. Senator Stabenow, do you have an opening 
comment?

STATEMENT OF HON. DEBBIE STABENOW, A U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Good morning, and thank you, Mr. 
Chairman.
    I appreciate very much all of you being here. I see 
familiar faces. I had the opportunity to speak to this terrific 
organization last evening, and welcomed them to Washington, 
D.C. As I indicated last night, what you do is very important, 
and we are looking forward to your comments this morning.
    I apologize in advance, Mr. Chairman. I am juggling two 
committees today, and will have to leave at some point for the 
Budget Committee. That certainly does not mean that I am not 
fully committed to what you are talking about. I look forward 
to working together.
    The Chairman. Thank you very much, Senator Stabenow.
    Senator Harkin is displaying another piece of evidence.
    [Laughter.]
    Senator Harkin. Oh, that is an article, ``Soft Drinks and 
Hard Facts.'' If you have not read it yet, read it.
    The Chairman. It is a pleasure to welcome the distinguished 
panel before us this morning. I will say this, just for the 
sake of history, because this meeting becomes, in a way, a 
rally of the faithful each year.
    Five years ago, the Federal National School Lunch Program 
was embattled, in large part, because a national debate was 
occurring. It occurred here in Congress, as to how the program 
should be administered.
    There were a number of Members of the Congress, in the 
Senate and in the House, who genuinely felt that the programs 
would be best handled at the state level, and some even at the 
local level. Essentially, the Federal mandate for a school 
program, they felt, was less appropriate than in the past, or 
inappropriate altogether, depending upon the political 
philosophy, I suppose, as you take a look at the federalism 
issues.
    We debated that in this committee, and in the House 
committee; but more generally, it was a debate outside of the 
committee. It was a sort of threshold debate at that time in 
the Congress in 1995.
    I remember the situation vividly, and many of you who were 
involved do too. In fact, legislation , that would have 
terminated the Federal School Lunch Program passed both houses. 
A conference was held, and essentially, a conference report was 
circulated.
    I had the unpleasant task, at that point, of being 
confronted with this matter at the moment, and this is simply 
anecdotal, as I was Candidate for President. I was in various 
states, running in primaries and so forth.
    Upon my return to Washington, I was confronted with the 
conference report that needed but two signatures on the Senate 
side to become law. Unfortunately, one of our colleagues 
signed, leaving just one signature remaining.
    I took the position, and I think correctly, that the 
Federal School Lunch Program is appropriate, because this is a 
country in which our children really cannot determine which 
state in which they have residence, or where they were born, or 
where they are going to live. They are really dependent upon 
their families, their parents.
    There needs to be some under-girdling safety net, as one 
nation, with all of our children. The ups and down and vagaries 
of various standards, state by state, really were inappropriate 
in this area.
    I did not sign the report. As a result, that School Lunch 
Program change did not become law. By that thin hair, the 
Federal School Lunch Program continued.
    [Applause.]
    The Chairman. Most people just assume there will always be 
a federal program; that there never really has been any 
particular threat. As a result, that is just as well.
    We have, I think, very strong bi-partisan support, as is 
evidenced in this committee this morning. That is important, 
too. This must not become a partisan issue. It should be 
something in which all of us come together, in both parties on 
this committee, to try to listen carefully to how nutrition for 
our children can be improved; and as a matter of fact, maybe 
through the influence of these programs, nutrition for adults, 
too.
    Your testimony is welcome this morning. I am going to call, 
first of all, upon Ms. Marilyn Hurt, the President of the 
American School Food Service Association of La Crosse, 
Wisconsin.
    Then my understanding is that those who accompanied her, 
namely, Ms. Marcia Smith, President-Elect of the American 
School Food Service Association of Bartow, Florida; Ms. Gaye 
Lynn MacDonald, Vice President of the American School Food 
Service Association of Bellingham, Washington; and Ms. Nancy 
Stiles, Chair of Public Policy and Legislative Committee, 
American School Food Service Association, from Hampton, New 
Hampshire will all make short comments, following the testimony 
by Ms. Hurt.
    Please proceed with your testimony.

  STATEMENT OF MARILYN HURT, PRESIDENT, AMERICAN SCHOOL FOOD 
                      SERVICE ASSOCIATION

ACCOMPANIED BY:
        MARCIA SMITH, PRESIDENT ELECT, AMERICAN SCHOOL FOOD SERVICE 
            ASSOCIATION
        GAYE LYNN MAC DONALD, VICE PRESIDENT, AMERICAN SCHOOL FUND 
            SERVICE ASSOCIATION
        NANCY STILES, CHAIR, PUBLIC POLICY 7 LEGISLATIVE 
            COMMITTEE, AMERICAN FOOD SERVICE ASSOCIATION
    Ms. Hurt. Thank you, Mr. Chairman, and thank you for the 
support that you give us. We, too, have a vivid memory of five 
years ago. Your support certainly helped us preserve this very 
important program, and your understanding of our program is 
equally important.
    As you indicated, I am Marilyn Hurt. I am President of the 
American School Food Service Association, and I am the Food 
Service Director in La Crosse, Wisconsin. You have introduced 
my colleagues, who are here with me. I also have several 
hundred of my closest friends behind me.
    [Laughter.]
    Ms. Hurt. They are equally passionate and energetic and 
enthused about these programs.
    Of course, we have a wonderful contingency here from 
Indiana, including the President, Bonnie Cooprider; and the 
President-Elect, Gayle Knafel, is here, as well as their 
Legislative Chair, who is Mark Miller. Mark is an industry 
member. He is General Chair of SFSPac, which provides our 
programs with safety and sanitation programs.
    In addition, we have Barry Reese. I want to acknowledge 
Barry, because he works so hard on the American School Food 
Service Association's Public Policy and Legislative Committee.
    We are pleased to have the Indiana contingency here with 
us, as well as a number of distinguished people from Iowa. I am 
sorry the Senator from Iowa had to leave this morning.
    Once again, let me express my deep appreciation of you, Mr. 
Chairman, as well as the committee, for your commitment to 
these programs, because it has helped us preserve the programs, 
enrich the programs, and it certainly shows us your 
demonstrated commitment. On behalf of all of us here, and the 
entire American School Food Service Association, thank you very 
much.
    Mr. Chairman, we have spent a great deal of time working on 
our long-range legislative goals. One of them that is very 
important to us is listed on our issue paper today. That is to 
provide all children with nutritionally adequate meals, at no 
charge to the child at the point of service.
    Now we believe that all of us have a responsibility for 
feeding children, including our parents, our local school 
boards, our communities, our state governments, as well as the 
Federal Government. Together, we can certainly provide this to 
our children, to give them this nutritionally adequate meal.
    We look forward to working with the new Secretary of 
Agriculture, Ms. Veneman, who will help us, we hope, explore 
these options for strengthening the programs.
    The current Federal commitment is certainly significant, 
$6.5 billion each year, and it shows the support of Congress 
for our efforts. I want to thank the members of the committee 
for this commitment to providing nutritious meals to our 
children across this country.
    However, I want to take the opportunity this morning to 
share with you some of the issues that we are dealing with, 
back home in the school districts. I am going to begin with 
nutrition education.
    You know, we have been here to Congress in the past to talk 
about nutrition education in schools and the importance of 
nutrition education. We see something going on among our 
children. We are getting new reports on obesity and under-
nutrition. These reports are alarming us. What we are seeing 
among our children is alarming us.
    We believe that failure to confront this issue now is going 
to result in serious consequences to these young people, as 
they go into adulthood.
    In addition to the acute health problems caused by epidemic 
obesity, economic costs are also to be considered, because of 
the medical expenditures that these individuals are going to be 
facing later in life, as well as lost work productivity. This 
cost could certainly be immense.
    Nutrition is a risk factor, as you indicate, Mr. Chairman, 
with heart disease, stroke, cancer, diabetes. Symptoms of these 
diseases are appearing among our young people. We see children 
with diseases that are normally associated with adults.
    At the request of Congress, USDA recently issued a report 
in which it recommends that we create a national nutrition 
education program. We are, of course, supportive of this.
    Despite the size of the Federal commitment to child 
nutrition programs, the Government currently invests virtually 
nothing in nutrition education in schools and teaching our 
children the importance of the food that they consume and its 
impact on their long-term health.
    ASFSA is a strong supporter of nutrition education, and we 
encourage Congress to consider legislation that could create an 
integrated nutrition education program. We suggest that this be 
in the amount of $50 million, which would be $1 for every 
school age child in this country.
    Now I want to talk a little bit about the foods that are 
sold in schools today. Every day, there are foods sold in our 
schools that take kids away from the very nutritious National 
School Lunch Program.
    As was pointed out in the February 27 issue of the 
Washington Post article last week, and we do have copies of 
this, on schools hooked on junk food, the students may be junk 
food junkies, but the schools are hooked, too. They are 
increasingly dependent on the revenue that soda and candy 
machines bring in each year.
    This is a huge challenge for those of us in school 
nutrition programs. You know, on the one hand, we are out there 
providing these nutritious meals.
    On the other hand, we are under a great deal of financial 
pressure from our school districts and our school boards to 
bring home break-even budgets, year after year. Yet, we have a 
great deal of competition for the foods that we are serving; so 
this compounds the pressure.
    Some districts actually are told, you need to be a profit 
center. The school nutrition program needs to make money, and 
funds are transferred from the school nutrition program into 
the general fund for education. You can understand with that 
the pressure that we are under.
    Then we find, outside the door of the cafeteria, 
principals, coaches, librarians, selling food in competition 
with our program, and they are not necessarily nutritious 
foods, to raise dollars for their education programs and the 
programs that they need in the schools.
    Well, in the 1970's, Congress attempted to address this 
issue by giving the Secretary the authority to regulate the 
sale of competitive foods, as Senator Harkin indicated. In 
1983, the Appeals Court ruled that the Secretary's authority 
extended only to the time and place that the National School 
Lunch Program meals were being served.
    We believe that the Secretary should have the discretion to 
regulate the sale of competitive foods throughout the school 
day, all day long throughout the school campus, while school is 
in session.
    The USDA recently issued a report to Congress, which we 
would like to make part of the hearing record. The report 
describes the impact of these food sales on the National School 
Lunch Program. It pointed out several issues that arise, and I 
would like to mention those today, on how this affects the 
children.
    [The information referred to can be found in the appendix 
on page 38 & 41.]
    Ms. Hurt. First, as we indicated earlier, these foods 
create diet-related health risks. Our school meals are 
certainly nutritious, and they are better than ever. Studies 
indicate that children who participate in the National School 
Lunch Programs receive more essential nutrients than children 
who do not.
    These other foods that are being sold outside of the school 
cafeteria are frequently high in fat, high in calories, high in 
sugar, and have very few nutrients. The consumption of these 
foods, and it has been reported just in the last few weeks, 
leads to obesity among our young people, and certainly to other 
health problems.
    Competitive foods adversely affect student participation in 
our programs, because these foods can be offered anywhere on 
campus. It is very convenient, and it is throughout the school 
day, whenever a child is hungry and might want something to 
eat. Many of our students consume those foods, rather than 
coming into the school cafeteria to consume our nutritious 
foods.
    This, of course, leads to declining participation, which 
then has another impact on us economically, reduces the support 
that we receive from commodities, and reduces the cash support 
that we receive in addition.
    These foods also that are sold outside the school cafeteria 
potentially stigmatize the students who are inside eating with 
us. These competitive foods are available to those kids who 
have money, and leaves out other students who are frequently 
eating with us.
    ASFSA believes that the school food programs should be 
portrayed as reliable and nutritious food sources for all 
children, regardless of their income. All children need good 
nutrition. We need some help driving that message home.
    These competitive foods send a mixed message to our 
children. You know, they go into the classroom, into health 
classes. They learn about good nutrition. They learn about the 
foods that they need to be consuming in order to have long-term 
health. Then they walk outside the door, go down the hallway, 
and here facing them are a bank of vending machines that are 
selling something else.
    What kind of a message is that sending to these young 
people? Is it that this is just an academic exercise that is 
going on in the classroom, but you really do not have to 
practice it? We are concerned about the mixed message.
    Based upon the findings of the USDA, recommended in their 
January 12 report to Congress, we recommend and will support an 
act to strengthen the statutory language to ensure that all 
foods that are sold or served anywhere in school, during the 
school day, meet nutrition standards. We support this 
wholeheartedly. There needs to be a consistent policy for 
nutrition sold in schools.
    Now I just want to spend a moment on bonus commodities. I 
know you are aware that in 1994, the National School Lunch Act 
was amended to ensure that schools receive at least 12 percent 
of the Federal lunch support in the form of USDA-purchased 
commodities.
    In addition to this guaranteed minimum, schools routinely 
receive bonus commodities. These come from the agricultural 
surplus removal programs. Unfortunately, the formula was 
changed in 1999, so that all commodities receive, regardless of 
their budgetary source, is counted toward the minimum 
percentage requirement. This change resulted in fewer 
commodities.
    Thanks to your leadership, Mr. Chairman, the Congress 
addressed the problem, albeit temporarily, by restoring the 
original commodity assessment method for fiscal year 2000 and 
fiscal year 2001.
    However, without Congressional action, the program will 
revert back to the 1999 rule on this October 1. As a result, we 
would have a reduction in commodities into our schools by $55 
million. Of course, this affects our agricultural community, as 
well as food banks across the nation. We support permanently 
extending last year's statutory remedy for this.
    After-school snack programs have become important. After-
school programs are important, and a number of our schools are 
now providing such programs for our children, so that they have 
projects and activities to be involved in, after school.
    With so many parents working, we know that children 
otherwise go home to an empty house. In 1998, recognizing the 
value of offering nutritious foods at these after-school 
activities, Congress expanded the availability of the meal 
supplements to our after-school enrichment programs.
    The current maximum reimbursement for this snack is only 55 
cents, and I think my colleagues are going to address this 
today, because it simply does not cover the cost of the food, 
the labor, and the supplies that are needed to deliver the 
program.
    What ASFSA would support is legislation that would require 
USDA to determine what is the actual cost of delivering the 
program, and then providing a reimbursement that would be equal 
to that amount.
    In addition, ASFSA would like to see that states be 
reimbursed for the expenses of oversight of the snack program, 
using the State Administrative Expense, or SAE formula. The 
legislation that expanded authority for after-school snack 
programs did not adjust the SAE formula accordingly. ASFSA 
urges Congress to correct this inconsistency at a cost of about 
$70,000.
    Finally, I do want to address the McGovern/Dole 
International School Lunch Program. There are, as you 
indicated, 300 million hungry children in the world, and an 
estimated 130 million of these children, mostly girls, do not 
attend school.
    To quote the U.S. Ambassador to the United Nations Food and 
Agricultural Organization, George McGovern, he says, ``If 
education is the key to development in the Third World, the 
school lunch is the key to unlocking the education door.''
    Of course, we have a model program in this nation, and we 
have learned how important this is to education of children, as 
has been mentioned here this morning.
    We agree with the assessment. We applaud the last 
Administration's contribution of roughly $300 million in 
agricultural commodities for the International School Lunch 
Program that was proposed by Ambassador McGovern and Senator 
Bob Dole.
    We look forward to working with the Bush Administration on 
this effort. We are pleased that President Bush has asked 
Ambassador McGovern to continue in his post.
    In addition to providing a humanitarian use for surplus 
agricultural commodities, the International School Lunch 
Program draws children to the classroom, where they can receive 
the obvious benefits of an education.
    The ISLP seeks to insure that all children have at least 
one nutritious meal every day. Furthermore, it is designed to 
foster self-sufficiency within participating countries, so they 
eventually will be able to administrate and fund these school 
food programs themselves. ASFSA supports legislation that would 
permanently authorize and fund the McGovern/Dole International 
School Lunch Program.
    Before I conclude, I just would like to mention that this 
is National School Breakfast Week. In most of our districts 
across the country, we certainly are promoting and celebrating 
the school breakfast and its importance to the children, as it 
is an education tool.
    In conclusion, I want to thank you, Mr. Chairman and 
members of the committee, for accommodating the American School 
Food Service Association with this hearing. We certainly 
appreciate it.
    Now I would like to introduce my colleagues, beginning with 
Marcia Smith. She has some comments that she would also like to 
make.
    Thank you very much for your attention and support.
    [The prepared statement of Ms. Hurt can be found in the 
appendix on page 31.]
    The Chairman. Thank you, Ms. Hurt.
    Ms. Smith.

          STATEMENT OF MARCIA SMITH, PRESIDENT-ELECT,
   AMERICAN SCHOOL FOOD SERVICE ASSOCIATION, BARTOW, FLORIDA

    Ms. Smith. Good morning, Mr. Chairman. I want to thank you 
again, on behalf of the American School Food Service 
Association, and to Senator Harkin and to all members of the 
committee, for allowing us to speak this morning.
    I am Marcia Smith, and I am from a large district in 
Florida, with 50 schools participating in the after-school 
snack program.
    We served almost 160,000 after-school snacks last year. 
Thank you for providing funding for this program. It has been 
very well received by the students, parents, and operators of 
the after-school program.
    Unfortunately, food and labor costs continue to escalate. 
In addition, students want variety, and it is becoming very 
difficult to purchase snacks that add wholesome variety, 
without costing more money. Therefore, we are recommending that 
USDA conduct a study on what the after-school snacks are 
costing.
    We want to continue the after-school snack program, and we 
want more districts to become involved with the program. We 
know it is working. I would just like to illustrate by sharing 
a short story with you.
    A teacher who operates the program in a school in our 
district called and said, ``Thank you for the gift, Mrs. 
Smith.'' When I asked, ``What do you mean by the gift?'' she 
proceeded to tell me that by Food Service providing the after- 
school snack, that it had allowed her more time to work on 
activities for the after-school tutoring program.
    She no longer had to make trips to the grocery store. She 
no longer to worry about bugs in her classroom, because she no 
longer had to store food. She also had more space to store her 
teaching materials.
    She also proceeded to tell me that she was a parent whose 
child participates in the program. She wanted me to know that 
it was very comforting to her that when she got home, she could 
take the time to prepare a hot meal. She had a growing boy, and 
I do too. Of course, the first thing that he would do was grab 
anything that he could find, as soon as he walked in the door.
    Once again, I want to thank you for the opportunity to 
share the importance of the after-school snack program. It 
really has become a very important part of the educational day.
    Thank you.
    The Chairman. Thank you, Ms. Smith.
    Ms. MacDonald.

  STATEMENT OF GAYE LYNN MAC DONALD, VICE PRESIDENT, AMERICAN 
                SCHOOL FOOD SERVICE ASSOCIATION,
                     BELLINGHAM, WASHINGTON

    Ms. MacDonald. Yes, thank you so much Mr. Chairman and to 
the other members of the committee. I would just like to say, 
on behalf of the American School Food Service Association, how 
much we appreciate the bi-partisanship of this committee, and 
especially in support of our issues.
    I would like to focus my remarks today on nutrition 
education. As you have heard, current dietary patterns of 
American children range from obesity to under-nutrition; the 
results of too much food, not enough food, and in a majority of 
instances, poor food choices.
    ASFSA is asking your help in addressing these critical 
dietary patterns by providing funding for the development of a 
comprehensive, coordinated nutrition education program in 
schools across America.
    In schools, students need to hear and see consistent 
messages about healthy nutrition practices; practices that are 
modeled in meals provided through the National School Lunch 
Program, School Breakfast Program, the After-school Snack 
Program and others; reinforced through classroom and cafeteria 
activities; and delivered in an overall school environment, 
promoting a healthy focus.
    America's students need to be educated about positive 
nutrition habits on a consistent basis. Currently, most 
nutrition education efforts are concentrated in the second 
grade, the fourth grade, and the sixth grade.
    We know that it should be an ongoing process. They need 
education not only in positive nutrition habits, but they need 
education on how to make better food choices by being informed 
consumers.
    Many of us here today work with our teachers to provide 
classroom nutrition education. Nothing is more rewarding than 
getting letters from students praising carrots, green peppers, 
kiwi, physical activity, or how to outsmart fat cells. However, 
these efforts may be hit and miss, a grade level and classroom, 
here or there.
    Habits learned in childhood do last a lifetime. A fresh 
approach to delivery of nutrition education must include a 
funded component for state and local infrastructure.
    ASFSA encourages and supports collaborative efforts to 
design and deliver meaningful nutrition education programs. 
ASFSA, USDA, and the Department of Education would make a fine 
core team.
    Hungry children can not learn, either in school or in life, 
and neither can unhealthy children. A strong Federal commitment 
to a fresh, new comprehensive coordinated nutrition education 
program is crucial to our nation's youth. It will assure a 
maximum return on the significant Federal investment in school 
meal and education programs.
    Please join with us to ensure a strong future for America: 
healthy, informed children and youth adults, ready to learn.
    Thank you very much.
    The Chairman. Thank you, Ms. MacDonald.
    Ms. Stiles.

         STATEMENT OF NANCY STILES, PUBLIC POLICY AND 
          LEGISLATIVE COMMITTEE, AMERICAN SCHOOL FOOD 
          SERVICE ASSOCIATION, HAMPTON, NEW HAMPSHIRE

    Ms. Stiles. Thank you, Mr. Chairman, Senator Harkin, and 
all members of the committee. I am absolutely delighted to be 
here with you today.
    Last year, ASFSA established its long-range legislative 
goals. I was privileged to serve on that task force. Marilyn 
has addressed one of those long-range goals this morning in her 
testimony. That is that we would provide nutritionally adequate 
meals at no charge to the child at the point of service.
    In developing that long-range goal, the intent was not to 
develop a fully federally funded program, but a shared 
responsibility with state, local, and parental funding sources.
    Presently, the IRS collects financial data at the Federal 
level. States also collect that income data, as well as other 
departments at the state level, that identify families with 
minimal income sources.
    In the last few years, the data collected on the school 
lunch application has been used for a variety of funding 
sources for other programs. We would like to work with the 
Congress, the child nutrition authorizing committees, and 
Secretary Veneman, to explore possible options to accomplish 
these same goals.
    We believe that not charging the child at the point of 
service will be efficient, accountable, and allow us to focus 
our efforts on quality programming.
    We believe there is a real opportunity here. We would like 
to streamline this process for financial data collection, and 
we would very much look forward to working with you, this 
committee, on those opportunities, and begin that dialog as 
soon as possible.
    Thank you very much.
    The Chairman. Well, thank you for your testimony.
    We will now ask you to respond to our comments and 
questions. We will limit these to 5 minutes per Senator. We 
will have another round, if people are not able to answer or 
raise their questions in that period of time.
    Let me just simply start by indicating that I have recently 
participated in a conference of health professionals, 1,000 
people who came to Washington and heard Dr. Kenneth Cooper of 
the Cooper Clinic give dramatic charts with regard the health 
of individuals across all ages.
    The thing that was striking about Dr. Cooper's testimony 
and the data from his laboratories, now published in various 
medical journals, was an absolute positive correlation between 
obesity and heart disease; between obesity, low density 
cholesterol, lipro proteins, and heart disease. It simply had 
no deviation. A straight line does not necessarily reflect a 
correlation between obesity and other outcomes.
    Furthermore, the testimony of others indicates that, 
arguably, on body mass index measurements, a majority of 
Americans are overweight. Over a quarter of Americans are 
severely obese, to the point of having a health problem. Now 
that is twenty-five percent of all Americans.
    The shocking aspect, and you have touched upon this, is the 
incidents of these conditions in children. The data, really, I 
suspect, is available, but we would like to have this for our 
committee.
    As is now evident, children, who was a group have not 
really been considered subjects for heart disease research, are 
developing low density lipro proteins, very bad ratios in the 
cholesterol measurements, and conditions that clearly are going 
to lead to diabetes or other health problems fairly early in 
life.
    This is a serious predicament. In part, it is a predicament 
of prosperity in the world, and the availability of food and of 
food choices.
    A lot has been said this morning about these choices, and 
how at least they might be restricted in some ways. We know 
that food choices are made in many cases outside of schools; 
quite apart from those for which you are responsible.
    The educational component, however, for which you do take 
responsibility, and for which we have some responsibility here 
to help you, is critical to that choice making. As you have 
pointed out, it is not a second, fourth, or sixth grade 
proposition.
    This is a lifetime challenge for Americans who spend 
billions of dollars on weight control programs, on magazines 
designed to instruct them on how to resist the temptations of 
life that are all around them, including bad nutritional 
choices. It is a serious health choice.
    The bottom line in the presentation of Dr. Cooper and 
others is that, unfortunately, because of their pattern of food 
choices, Americans will incur health expenses that are truly 
exorbitant. These cost will test our Medicare system. They will 
test our public health systems. They will test the budgets, 
really, in most families, as they try to address health 
problems resulting from very poor nutrition choices.
    Now this is beyond the purview of today's hearing, because 
we are talking about food and nutrition, but exercise is an 
important component. Likewise, one could add adequate sleep.
    After you consider these three things which affect children 
and all of us, the question is, how can a program be designed 
really to benefit children. How can a program be designed to 
make certain that not only do children have nutrition 
sufficient to perform in the classroom, to make healthy 
lifestyle choices generally. This means expanding our horizons 
considerably and thinking about lifestyle choices in education.
    That is one of your emphases. How we do that, how that is 
an integral part of the various other educational requirements 
is not clear. That is something that we all have to work on.
    Finally, let me just mention that I have enthusiasm, as I 
have indicated, and Senator Harkin has and others will, for the 
International School Lunch Program. Our hearing was filled with 
idealism and that is important.
    It also was filled with the problems of administering a 
School Lunch Program in many countries around the world. Now we 
have to go in with pretty clear eyes because, in fact, the 
testimony frequently indicated that the commodity bulk foods 
and other surpluses we have are really not needed. Instead, 
countries want to monetize the donated food to provide various 
things that they feel are even more essential than the foods 
themselves.
    Well, in essence, it is a form of foreign assistance, or 
foreign aid, which may be very valuable. Monetizing food 
donations is something different than the conception that many 
people have of surplus foods going which is consumed by hungry 
people. The administration of such an alternative you know, 
from your own school programs, is complex.
    Now many of the lessons learned in American school meal 
service, and these you can help us with, are applicable abroad. 
The NGO's and the other groups that have dealt with this in our 
country probably would be very helpful in that respect, too.
    I just want to say, as we proceed along this line, I am 
trying to raise questions about physically how we do it; how 
the goods are moved, and who does what. The goal is to avoid a 
national scandal, in which the American people say, ``this is 
not exactly what we thought was occurring.'' We were all in 
favor of the humanitarian aspects, but not in favor of a 
boondoggle, here or abroad.
    Now in New Albany, Indiana last summer, I found a summer 
food program like you described. Different states serve in 
greater percentages of eligible children than others.
    Here in the District of Columbia, my information indicates 
about one-half of eligible children have participated in a 
summer food program. In Indiana, the percentage was much closer 
to 10 percent, not 50 percent. I tried to discover the 
dilemmas.
    Now most of summer programs are administered by Park 
Departments, by other branches of government, sometimes in 
coordination with school systems and on school premises. 
Looking at the National scene, programs managers still 
administrative obligations that may be burdensome.
    Your guidance in regard to how we make the program more 
appealing to potential sponsors more user friendly would be 
helpful. Sometimes the challenge is how to get the information 
out to civil governments, in addition to school governments or 
others who might be a helpful sponsor.
    This is a gap, as many have pointed out over the years. We 
try to do a good job for eight or nine months of the school 
year, but suddenly at that point, in May or June, the door 
closes, and the children are sort of left to themselves. They 
have many of the same needs during that summer. Many of us, 
including yourselves, are mindful that we need to think of how 
we can strengthen the summer food service program.
    Let me just call a cease-fire on my own part now, because I 
have taken, I am sure, more than the five minutes that I have 
allotted to other members.
    I will turn to my distinguished colleague, Senator Leahy, a 
long-time champion of the School Lunch Program; not only a 
champion of it, but a practitioner, therefore, and a former 
Chairman of our committee.
    Senator Leahy.

STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. Thank you, Mr. Chairman.
    I was struck when I heard my good friend, Senator Lugar, 
talk about the need for exercise and nutrition and sleep. I was 
thinking about whether we could get that in for the 100 
Senators and, even more importantly, for their staffs who work 
even longer hours than we do.
    I tried to work out the exercise bit last year. I took up 
skydiving.
    [Laughter.]
    Senator Leahy. I am serious. I actually did.
    This year, though, we are in a 50/50 Senate. A change of 
one on either side would change the throne.
    [Laughter.]
    Senator Leahy. The Democratic Caucus has passed a 
resolution saying I can not go skydiving anymore, but the 
Republican Caucus invites me every day.
    [Laughter.]
    Senator Leahy. I am not sure just what the message is.
    Mr. Chairman, I think half of Vermont is down here. Joe 
Busha, Connie Bellavance, Earlene Bosley, Carol Brill, Sue 
Steinhurst , and Cathy Sjolander, are here. They were in the 
office with me earlier.
    You know, just the fact that we have only 20 or 30 inches 
of snow in Vermont does not slow them up from coming down. It 
may slow them up from getting back.
    They are also fans of yours, Mr. Chairman, because they 
know how hard you have worked on these nutrition matters, just 
as our witnesses have. Marshall Matz, I see him here, and what 
a great job he has done, over all these years.
    Senator McConnell is now Chair of the Nutrition Committee. 
My first choice was to become Ranking Member of that 
subcommittee. You and Senator Harkin were good enough to give 
me that choice. Senator Harkin, of course, has been a strong 
proponent.
    You know, there are some things that we can do together, 
ASFSA and the committee. In my own State of Vermont, you did a 
great job using the breakfast program startup funding. There 
was a huge increase in the percentage of schools offering 
breakfast programs.
    There are a couple of things that I would like to speak 
about. I am going to be working with a number of Senators on a 
bill to clarify USDA authority to totally eliminate the sales 
or the donation of soft drinks to children before the end of 
the last lunch period.
    I really believe that selling soft drinks to school 
children just before or during lunch does not send the right 
message. It is really a very poor nutrition policy. I have 
talked with those who run the nutrition programs, not only in 
my own state, but elsewhere, and they agree.
    I am perfectly willing to entrust this important decision 
to the Secretary of Agriculture. If we pass this, she will have 
to get public input, and we will have that.
    Now the other item is the McGovern/Dole International 
School Lunch Program, that Senator Lugar has already talked 
about. I have worked with him and Senator Harkin and Senator 
Durbin and others on this. I have talked about it with both 
Senator Dole and Ambassador McGovern.
    We had a very good meeting with former President Clinton. 
We had Senator Dole and Senator McGovern there, shortly before 
the end of President Clinton's term.
    I do remember the great line of Senator Dole's. You know, 
if he had been elected President, that would be about his last 
couple weeks in office. He turned to President Clinton and he 
said, ``I know exactly how you feel.''
    I looked at Senator Dole and Senator McGovern, two people 
that I respect greatly, both of whom I served with, and the 
message they sent was, this is not a partisan or political 
issue. This is an issue of good sense.
    We have an opportunity to embark on a very good and 
historic venture, because of the unexpected and, I think, 
tremendous benefits that it could have for world peace and 
understanding.
    You know, most beginnings rarely seem momentous at the 
time. Then you look back, and you study it, and you realize how 
important it is. What a bold vision it is for a multi- national 
effort to provide meals to very needy children in school 
settings.
    Think of the changes in societies, in countries, if these 
children had the nutrition, what it would do for their health 
care, what it would do for their education, of both boys and 
girls, especially in parts of the world where only boys get 
educated and girls do not. Think how important it would be.
    This is a very, very good thing. We have seen it in Ghana, 
where the Catholic Relief Service Project has seen the number 
of girls enrolled in school jump by 88 percent. Their 
attendance rose by 50 percent, because of the program.
    Catherine Bertini, the Director of the World Food Program 
said that in Pakistan, they offered cooking oil to families, if 
they sent their children, and especially girls, to school. The 
parents' response was overwhelming, and enrollment of girls 
doubled.
    I hope we can introduce what I call the McGovern/Dole Bill 
next week in the Senate, along with the House. These are 
important things.
    Senator Lugar, in fact, probably does have the greatest 
understanding of foreign relations and the complexity of it, of 
any member of the U.S. Senate, and certainly any member that I 
have served with. He knows that this is not an easy thing.
    It can be idealistic, but I think it can be done. If it is 
done, the wealthiest, most powerful nation on earth will speak 
to its moral core, and will do something that will benefit all 
the world.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Leahy. I thank 
you for that compliment.
    I would just add to that, of course, the message that we 
want to give, as the most powerful nation, is a good message, 
in terms of nutrition, in terms of our experience and our 
educational opportunities, which other nations will perhaps 
want to share.
    Now having heard all of this testimony by Senator Leahy and 
myself, Ms. Hurt, do you have a comment, or do other members of 
the panel? This would be if you want to reinforce points that 
you have made or have additional thoughts.
    Ms. Hurt. We appreciate your summary, Mr. Chair, and want 
you to know that we certainly will address the issue of a 
comprehensive nutrition education program.
    We cannot do this by ourselves. We see that parents need to 
understand the importance of feeding their children the right 
foods. It appears to us that many of today's parents are quite 
confused about that and, in fact, may not be the role models 
that they need to be, too.
    In addition, everyone in the school setting needs to step 
up to the plate and help us with getting a consistent message 
to our students.
    The Chairman. Ms. Hurt, just on that point, technically, 
the school meals that you serve are nutritious.
    Ms. Hurt. Yes.
    The Chairman. I suppose we need to define what standards we 
are going to use. For instance, if we go out to the parents, 
parents would say, well, I just read in this magazine an 
authoritative statement on nutrition which said this, and what 
do you have to say about that?
    You know, we have now the USDA standards and goals and the 
pyramid. There are certain benchmarks that are still, I 
suppose, controversial. Nevertheless, they have been tested 
reasonably over time, in terms of the numbers of servings of 
fruits and vegetables, of cereal grains and various things that 
ought to be a part of a diet each day. Obviously, a complete 
daily diet cannot be encompassed totally by the school lunch or 
breakfast or snack programs, but they can contribute and be 
consistent with daily guidelines.
    I have often wondered, as we think about a more 
sophisticated educational approach, for children and their 
parents, which authorities we cite, and with what confidence we 
do so. How do we fill in the blanks concerning healthful food 
choices, so we are not accused of making arbitrary judgments or 
following fads of the moment when we are relying on researched-
based work.
    Have you given thought as to how you cite the authorities, 
or how your an understandable and credible message that to 
everybody, adults and children?
    Ms. Hurt. Well, it is something that we certainly need to 
address and look into. The food guide pyramid is a simple plan, 
easy to understand, and one that we use when we do nutrition 
education in the classroom.
    It is our opinion that it needs to be addressed 
collectively by all of us, and a consistent message be sent to 
parents that is simple; and not only to parents, but to all 
Americans, that is simple and easily understood.
    Obviously, we are not hitting the mark with it. Do we need 
to send more frequent messages? Yes. Do we need to put more 
dollars behind that? Yes. Does it need to be consistent 
throughout the schools? Certainly.
    Ms. Stiles. Yes, Mr. Chairman, I was pleased to hear you 
speak about physical education and sleep, because I have been a 
school Food Service Director for 26 years. During that time, I 
have had the opportunity to go into the classroom, and do some 
nutrition education.
    I have a pyramid that I have, that has the balance on the 
top for the meals. My two angles at the bottom, one is the 
proper amount of exercise, and the other is the proper amount 
of sleep. I have been preaching your spiel for 20 years now.
    The Chairman. Well, as an educator, you are probably not 
going to be able to control the sleep problem.
    Ms. Stiles. No, we cannot; we just advise.
    The Chairman. At the same time, you can advise.
    The exercise message is something else. Here is an area 
that many school systems have abandoned, and have said, 
essentially, this is a frill or a less essential. We are here 
to teach English and mathematics and solid academic subjects.
    By the same token, nutrition might be thrown overboard, 
too, as almost akin to the physical education program. We are 
dealing with endangered species, in terms of the things that we 
feel are important here, to the basic health of Americans, 
which in turn is addressed in this body, through legislation 
costing hundreds of billions of dollars.
    Now we all need health care under any circumstances, but 
the excessive frequency of many health problems that we face in 
this country can be attributed back to inadequate nutrition, 
exercise, and sleep.
    If children in the educational process do not have any 
guidepost to start out on, heaven help us with regard to the 
overall objective. You are trying to say this, and that with 
modest sums of federal money, health messages will need to be 
intergrated with other educational requirement and 
infrastructure.
    These are decisions that school boards all over America 
will have to make as value judgments, and the judgments with 
regard to healthy children and healthy Americans, have not been 
running in our favor, in my opinion.
    Your testimony today is very important. You, along with 
many others serve as a vanguard in school districts all over 
the country, who might be inluential at the local level, where 
probably it really counts.
    You know, ultimately, at this level, we can send out 
nutrition and other health messages that we think are 
important, and even fortify them with some moneys, which will 
have to be matched, again and again, by various others.
    Senator Leahy, do you have another comment?
    Senator Leahy. Mr. Chairman, I do not expect an exact 
answer to this.
    For Ms. Hurt and the others, I wonder, do you have any 
sense of how much having sodas and soft drinks before lunch 
cuts into the consumption, either of the nutritious foods we 
have talked about, or things like fruit juice, milk, or 
whatever else that children might need?
    Ms. Hurt. Well, we certainly know that soda and soft drinks 
available, outside of the school cafeteria and, actually, in 
some cases, in the cafeteria during the school day. It is very 
appealing to our students.
    We also know that the consumption of those products are 
pretty much empty calories, fills them up, leads to childhood 
obesity, and they may not come into the cafeteria for the 
National School Lunch Program, or the National School Breakfast 
Program, if they are in a hurry, and have already essentially 
been satisfied. You know, they feel full, and so they are 
moving on with the rest of their school day.
    I do not have any statistics or data for you on exactly how 
much our students are drinking, before they come into the 
school cafeteria.
    Ms. MacDonald. If I might add, Senator Leahy and Chairman 
Lugar, this is an extremely complex issue, as I know you 
understand. There are school administrators who, in attempt to 
keep students on campus, are looking at providing scenarios 
where students will stay on the campus, and not leave to find 
those foods that they want which may not be of the highest 
nutritional content.
    We are in a very difficult position, in evaluating where we 
fit into this scheme of things. That is why we mentioned the 
collaborative approach between parents, between school 
administrators, and school principals.
    Certainly, the Department of Education would play a big 
role in helping those agencies understand that we need to look 
at what is good for students, through the eyes of all of the 
players, and come to a consensus, so that we can have healthy 
children, who have access to nutritious foods with a nutrient- 
dense basis.
    Ms. Hurt. I also think that we need to continue to promote 
that the National School Lunch and National School Breakfast as 
an integral part of education; not just a place where kids come 
to fill up their bellies. Certainly, it is a program that helps 
alleviate hunger; but it is a part of education.
    Senator Leahy. Every teacher tells me the same thing. Among 
the reasons for the school breakfasts is that children in some 
areas leave home so early that they do not get breakfast, or 
they are in circumstances where their families can not afford 
to provide a healthy breakfast.
    Ms. Hurt. Yes.
    Senator Leahy. If the kids are nutritiously fed, not with 
empty calories, they learn better. You do not really need to be 
a scientist to know that.
    Every parent knows that. You can see it in your own 
children, when their attention span drops out. For those less 
fortunate to be parenting grandchildren with them, all over 
again. If children are adequately fed, they are fine; if they 
are not, problems they arise.
    Thank you, Mr. Chairman.
    The Chairman. Let me ask if any of the panel have any 
further comments?
    Ms. Hurt. Thank you, Mr. Chairman. We appreciate your 
giving us the time and for your support. Thank you, Senator 
Leahy, for the support you have also given us over the years. 
It has been truly important.
    The Chairman. We thank you for your leadership. We will do 
our best to examine, not only your testimony, but likewise the 
extended remarks that you and your association, really, have 
made throughout the year.
    Ms. Hurt. Yes.
    The Chairman. Today's hearing is basically an annual rally 
of the faithful.
    Ms. Hurt. Yes.
    The Chairman. Life goes on, and we have to use the day-by- 
day opportunities to be helpful.
    One of the dilemmas is that to the extent that we have 
Federal legislation that mandating school policy, we run into 
an age old problem of the autonomy of the local school board 
and the State Department of Instruction.
    We may say, well, listen, we are talking about the health 
of children, and we are. This is very serious. State and local 
boards would say, well, so are we. We, as a matter of fact, at 
the local level and at the state level, are just as strongly 
idealistic as you are about it. We resent your sending down 
messages that say, you must do this and you must do that, and 
so forth.
    I suppose that was the basis for our crisis of five years 
ago, in a way. There were many people who saw an opportunity to 
break up Federal mandates and system, operating more on an ad 
hoc basis, state by state or board by board. This a very 
important problem.
    In another forum, people are discussing student testing 
should children reach a certain reading level at the end of the 
third grade or the fourth or the fifth or so forth. This is a 
big debate, and it may very well be that the Federal government 
will decide what we are going to do.
    People are very carefully saying, but the states will 
determine the tests. It will not be a national test. States 
will have to determine how the children are doing, but they 
must reach a certain level of performance. It is a delicate 
matter, which I think you recognize.
    We need your guidance how to work through this situation, 
so that we are as effective as possible, in the substance of 
nutrition policy, without running aground with people who are 
resentful, that we have reached too far.
    The problem that Senator Harkin mentioned, is a serious 
one. You cited the Washington Post story, which illustrates 
that many times school administrators, principals of your 
schools, decide that generating school income from low-nutrient 
food sales is more important. There are crushing financial 
burdens upon our schools, at least as they are perceived, in 
terms of the total needs of students, as they perceive them.
    They would say to the Senators who are here today, back 
off; we know the needs of our school, our children, better than 
you do. Well, who are we to argue on that?
    On the other hand, we are arguing, in a way, that something 
is occurring here. As you are suggesting, Ms. Hurt, there may 
be an alternative cafeteria system going on, informal as it may 
be, outside the cafeteria, that the school lunch program 
becomes almost an academic exercise whereas, real life goes on, 
somewhere else.
    Nutrition messages are delivered in different contexts 
throughout a school and with strong sponsorship, by many 
persons. That is a very difficult thing for American education 
to sort out, quite apart from this committee, as advocates of 
school lunches.
    Nevertheless, having seen the dilemma, we must try and 
think our way though. How do we make a difference in addressing 
this serious problem.
    Many of you in your testimony have underlined this point, 
and many letters have come to the committee, I suspect from 
those in the room today, indicating the dolemma faced in 
schools.
    Well, we thank you again for coming. We thank all who have 
participated in the hearing. The hearing is adjourned.
    Ms. Hurt. Thank you.
    Ms. MacDonald. Thank you.
    [Applause.]
    [Whereupon, at 10:25 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
      
=======================================================================


                            A P P E N D I X

                             March 6, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED]74346.001

[GRAPHIC] [TIFF OMITTED]74346.002

[GRAPHIC] [TIFF OMITTED]74346.008

[GRAPHIC] [TIFF OMITTED]74346.003

[GRAPHIC] [TIFF OMITTED]74346.004

[GRAPHIC] [TIFF OMITTED]74346.005

[GRAPHIC] [TIFF OMITTED]74346.006

[GRAPHIC] [TIFF OMITTED]74346.007

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 6, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED]74346.011

[GRAPHIC] [TIFF OMITTED]74346.012

[GRAPHIC] [TIFF OMITTED]74346.013

[GRAPHIC] [TIFF OMITTED]74346.014

[GRAPHIC] [TIFF OMITTED]74346.015

                                   - 

</pre></body></html>
